                           OFFICE OF
                    THE INSPECTOR GENERAL


                        U.S. NUCLEAR
                   REGULATORY COMMISSION




              NRC’s Oversight of Research and Test Reactors


                        OIG-03-A-16       June 5, 2003




                      AUDIT REPORT




All publicly available OIG reports(including this report) are accessible through
                              NRC’s website at:
            http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                              June 5, 2003



MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      AUDIT OF NRC’S OVERSIGHT OF RESEARCH AND TEST
                              REACTORS (OIG-03-A-16)


Attached is the Office of the Inspector General’s audit report titled, NRC’s Oversight of Research
and Test Reactors.

At the time of this audit, staff met goals for reviewing and approving licensee requests for changes
to their licenses and licensee demand to license reactor operators. In addition, inspection
requirements were generally satisfied. However, aspects of NRC’s oversight can be improved.
Specifically, management should:

C       Improve guidance for inspection follow-up items,
C       Improve the operating plan,
C       Increase the information available to the public, and
C       Document refresher and continuing inspector training.

Enhancements in these areas will result in more efficient and effective oversight.

At an exit conference on May 21, 2003, NRC officials generally agreed with the report’s findings
and recommendations. Comments provided at the exit conference have been incorporated, as
appropriate, in our final report.

If you have any questions, please call me at 415-5915.

Attachment: As stated

cc:     W. Dean, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
P. Gwynn, Acting RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                     NRC’s Oversight of Research and Test Reactors


EXECUTIVE SUMMARY

    BACKGROUND

         Research and test reactors (also called non-power reactors) are nuclear reactors
         whose primary function is the safe conduct of research and development activities.
         Almost every field of science makes use of these reactors, which are also used to
         educate students for careers in the nuclear power industry, national defense, and
         research. The U.S. Nuclear Regulatory Commission (NRC) currently licenses 50
         research and test reactors. Thirty-five of those are operating in 23 states. Fifteen
         others are no longer operating and are being decommissioned.

         In contrast to commercial nuclear power facilities, most non-power reactors are
         located in urban areas, with the majority located on university campuses. The
         facilities typically range in power output from 0.10 watts to 20 megawatts (thermal)
         and most produce less than 1/1000th the power of a commercial power reactor.
         Unlike commercial power plants, facility staff regularly work in the reactor room or
         building during operation.

         Radiation produced by the reactor is used in a variety of research activities at
         non-power reactor facilities. For example, non-power reactors are routinely used
         to precisely measure the presence of trace elements like environmental pollutants
         in soil, water, air and foods. They are also used in the production of
         radiopharmaceuticals and the development of treatments for shrinking cancerous
         tumors.

         Research and test reactors are initially licensed under a two-step process which
         requires that NRC approve both a construction permit and an operating license.
         Operators at these facilities are tested by NRC to ensure that they have the
         required knowledge and skills to safely control the reactor and the ability to handle
         accidents. Additionally, NRC inspects each facility periodically to ensure that
         programs are conducted according to requirements.

         Because most research and test reactors are located at nonprofit educational
         institutions which are granted fee exemptions, in FY 2002 only four research
         reactor facilities were subject to fees. Approximately $285,600 of budgeted costs
         were recovered through annual fees, resulting in $71,400 in fees to each of the
         four facilities.

         Most research and test reactor activities are conducted by the Office of Nuclear
         Reactor Regulation, Research and Test Reactors Section. Projected staffing is 13
         full-time employees for fiscal year 2003.




                                           i
                                                           NRC’s Oversight of Research and Test Reactors

       Security and Oversight of Special Nuclear Materials

       NRC continues its efforts to ensure that the necessary post-9/11 security
       compensatory measures are implemented at research and test reactors.
       Licensees’ site-specific plans to implement compensatory measures, once
       approved by NRC staff and implemented by the licensee, will be verified by NRC
       inspection. OIG gathered information about security and safeguards and shared
       our observations with agency managers. However, because of its sensitivity and
       the status of the new requirements, this report does not comment in that area.

       The Office of the Inspector General (OIG) recently reported on NRC’s oversight of
       special nuclear material, which included such material at research and test
       reactors.1 Therefore, that area is not covered in this report.

PURPOSE

       Because of the agency’s focus on commercial power reactors, there was concern
       that research and test reactor oversight might not have been getting adequate
       attention, especially in the current heightened security environment. OIG
       conducted this audit to determine whether NRC’s oversight of research and test
       reactors is meeting NRC’s expectations.

RESULTS IN BRIEF

       At the time of this audit, and for the activities reviewed, oversight of research and
       test reactors was meeting NRC’s expectations. For example, staff met goals for
       reviewing and approving licensee requests for changes to their licenses and
       licensee demand to license reactor operators. In addition, inspection requirements
       were generally satisfied.

       However, some aspects of oversight can be improved. Specifically,

       C        Improve guidance for inspection follow-up items. NRC guidance
                documents are an important management control and, therefore, should
                provide clear direction for conducting agency activities. However, there is
                no guidance describing for licensees what an inspection follow-up item
                means in regulatory terms. As a result, licensees may fail to act according
                to NRC’s expectations (see pp. 4-5).

       C        Improve the operating plan. NRC offices prepare operating plans to show
                planned accomplishments (activities) and performance measures and
                targets. However, one of the two research and test reactor planned



1
       OIG-03-A-15, titled, Audit of NRC’s Regulatory Oversight of Special Nuclear Materials, May 23, 2003.

                                               ii
                                                         NRC’s Oversight of Research and Test Reactors

              accomplishments2 does not represent a discrete level of activity and current
              performance measures do not comply with guidance. As a result, it is
              difficult for management to monitor performance and resource usage for
              three distinct, important activities. Additionally, management does not have
              sufficient performance information to most effectively ensure performance is
              adequate. (see pp. 6-7).

      C       Increase the information available to the public. NRC’s web site provides
              the public with access, as appropriate, to NRC’s Inspection Manual,
              inspection procedures, and inspection reports. However, the web site
              version of the Inspection Manual does not show the specific inspection
              procedures to be performed by inspectors at each research and test
              reactor, and inspection reports do not always show all of the inspection
              procedures performed by inspectors. As a result, the public may not be
              adequately informed of NRC’s inspection activities and this may affect the
              public’s ability to effectively participate in or make reasonable judgments
              about the adequacy of NRC’s research and test reactor inspection program
              (see pp. 8 - 9).

      C       Document refresher and continuing inspector training. NRC requires
              certain training to ensure an overall level of inspector performance and to
              keep up-to-date with changes to the inspection program. While forums
              exist to provide this training, management does not document the results.
              Consequently, employee training records do not show compliance with
              training requirements (see pp. 10-11).

      Enhancements in these areas will result in more efficient and effective oversight.

MANAGEMENT ACTIONS

      Based on meetings about audit results held during fieldwork, Research and Test
      Reactor Section officials have initiated discussion and staff assignments to resolve
      each of the findings and recommendations in this report.

RECOMMENDATIONS

      This report recommends six improvements to the oversight of research and test
      reactors (see page 12 for a consolidated list).




2
      These two planned accomplishments are in the Office of Nuclear Reactor Regulation operating plan.

                                             iii
                         NRC’s Oversight of Research and Test Reactors




[Page intentionally left blank.]




               iv
                                                                            NRC’s Oversight of Research and Test Reactors


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    I.       BACKGROUND                 ..................................................1
    II.      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
             A.         OVERSIGHT IS MEETING NRC’S EXPECTATIONS . . . . . . . . . . . . . . . . . . . . . . . . . 4
             B.         IMPROVE GUIDANCE FOR INSPECTION FOLLOW-UP ITEMS . . . . . . . . . . . . . . . . . . 4
             C.         IMPROVE THE OPERATING PLAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
             D.         INCREASE THE INFORMATION AVAILABLE TO THE PUBLIC . . . . . . . . . . . . . . . . . . . 8
             E.         DOCUMENT REFRESHER AND CONTINUING INSPECTOR T RAINING . . . . . . . . . . . . 10
    IV.      MANAGEMENT ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
    V.       CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . 12
    VI.      AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


    APPENDICES
    A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                         NRC’s Oversight of Research and Test Reactors




[Page intentionally left blank.]




               vi
                                                         NRC’s Oversight of Research and Test Reactors


I. BACKGROUND

        Research and test reactors (also called
        non-power reactors) are nuclear reactors
        whose primary function is the safe
        conduct of research and development
        activities. Almost every field of science
        makes use of these reactors, which are
        also used to educate students for
        careers in the nuclear power industry,
        national defense, and research. The
        U.S. Nuclear Regulatory Commission
        (NRC) currently licenses 50 research
        and test reactors. Thirty-five of those
        are operating in 23 states. Fifteen others
        are no longer operating and are being
        decommissioned.

        In contrast to commercial nuclear power
        facilities, most non-power reactors are
        located in urban areas with the majority
        located on university campuses. The
        facilities typically range in power output
        from 0.10 watts to 20 megawatts
                                                     A research reactor showing the experiment bays and
        (thermal) and most produce less than                            control room.
        1/1000th the power of a commercial
        power reactor. Unlike commercial power
        plants, facility staff regularly work
        in the reactor room or building during operation.

        Research and Development Activities

        Radiation produced by the reactor is used in a variety of research activities at
        non-power reactor facilities. Researchers insert samples of materials in the reactor
        core or immediately outside the core to expose the samples to neutrons and
        gamma radiation. By measuring neutron scattering off a test sample (e.g.,
        superconductors, polymers, metals, and proteins), researchers can analyze
        molecular structure, surfaces and interfaces, measure electronic and magnetic
        properties, stress and strain conditions, and gauge other characteristics.




                                              1
                                                             NRC’s Oversight of Research and Test Reactors

                                                       Non-power reactors are routinely used to
                                                       precisely measure the presence of trace
                                                       elements like environmental pollutants in
                                                       soil, water, air and foods. They are also
                                                       used in the production of
                                                       radiopharmaceuticals and the development
                                                       of treatments for shrinking cancerous
                                                       tumors.

                                                       Licensing

                                                       Research and test reactors are initially
                                                       licensed under a two-step process, which
                                                       requires that NRC approve both a
                                                       construction permit and an operating license.
                                                       After the facility is operating, certain changes
                                                       to the operating license3 require NRC review
                                                       and approval.

                                                       Operator Licensing
Cutaway view of a research reactor
                                                       NRC tests and licenses research and test
                                                       reactor operators to ensure that they have
                                                       the required knowledge and skills to safely
                                                       control the reactor and the ability to handle
                                                       accidents. The agency administers a
                                                       comprehensive written examination and also
                                                       requires a hands-on demonstration of the
                                                       candidate's ability to control the reactor.

         Inspections

         NRC inspects each facility periodically to ensure that programs are conducted
         according to requirements. Areas inspected include, but are not limited to,
         organizational structure, qualifications and responsibilities, operational activities,
         review and audit functions, radiation and environmental protection, maintenance
         and surveillance activities, fuel handling, experiments, emergency preparedness,
         material control and accounting, and safeguards and security.




3
         License amendments or changes to the facility’s technical specifications.

                                                 2
                                                             NRC’s Oversight of Research and Test Reactors

         Organization and Fees

         Between 1995 and 1997, NRC consolidated research and test reactor oversight to
         headquarters to provide (1) additional assurance of regulatory consistency, (2)
         more direct focus on non-power reactor safety issues and regulatory matters, (3)
         enhanced efficiency and flexibility in the use of resources by combining functions,
         and to (4) extend and broaden employee responsibilities and functions. Oversight
         is currently conducted by staff in the Research and Test Reactors Section of the
         Office of Nuclear Reactor Regulation. For fiscal year 2003, the projected staffing
         is about 13 full-time employees.

         Because most research and test reactors are located at nonprofit educational
         institutions which are granted fee exemptions, in FY 2002 only four research
         reactor facilities were subject to fees. Approximately $285,600 of budgeted costs
         were recovered through annual fees, resulting in $71,400 in fees to each of the
         four facilities.

         Security and Oversight of Special Nuclear Materials

         NRC continues its efforts to ensure that the necessary post-9/11 security
         compensatory measures are implemented at research and test reactors.
         Licensees’ site-specific plans to implement compensatory measures, once
         approved by NRC staff and implemented by the licensee, will be verified by NRC
         inspection. OIG gathered information about security and safeguards and shared
         our observations with agency managers. However, because of its sensitivity and
         the status of the new requirements, this report does not comment in that area.

         OIG recently reported on NRC’s oversight of special nuclear material4, which
         included such material at research and test reactors.5 Therefore, that area is not
         covered in this report.


II. PURPOSE

         Because of the agency’s focus on commercial power reactors, there was concern
         that research and test reactor oversight might not have been getting adequate
         attention, especially in the current heightened security environment. OIG
         conducted this audit to determine whether NRC’s oversight of research and test
         reactors is meeting NRC’s expectations.


    4
         Special nuclear material is plutonium, uranium-233, uranium enriched in the isotopes uranium-233 or
         uranium-235, and any other material NRC determines to be special nuclear material. Practical uses
         include the fuel for research and test reactors.

    5
         OIG-03-A-15, titled, Audit of NRC’s Regulatory Oversight of Special Nuclear Materials, May 23, 2003.

                                                 3
                                                       NRC’s Oversight of Research and Test Reactors


III. FINDINGS

           At the time of this audit and for the activities reviewed, oversight of research and
           test reactors was meeting NRC’s expectations. For example, staff met goals for
           reviewing and approving licensee requests for changes to their licenses and
           licensee demand to license reactor operators. In addition, inspection requirements
           were generally satisfied. However, aspects of NRC’s oversight can be improved.
           Specifically, management should:

           C      Improve guidance for inspection follow-up items,
           C      Improve the operating plan,
           C      Increase the information available to the public, and
           C      Document refresher and continuing inspector training.

           Enhancements in these areas will result in more efficient and effective oversight.


     A. OVERSIGHT IS MEETING NRC’S EXPECTATIONS

           Several components of NRC’s regulatory process characterize the expectations of
           its oversight of research and test reactors, including:

           "      licensing applicants to use nuclear materials or operate nuclear facilities,
           "      overseeing licensee operations and facilities to ensure that licensees
                  comply with safety requirements, and
           "      evaluating operational experience at licensed facilities or involving licensed
                  activities.

           Despite the internal redirection of significant resources to addressing security
           issues subsequent to 9/11, research and test reactor oversight has, for the
           activities reviewed, met NRC’s expectations. For example:

           C      staff reviewed and approved licensee requests for changes to their licenses
                  in accordance with requirements,
           C      staff met licensees’ demand for licensing reactor operators,
           C      staff are generally meeting or exceeding inspection requirements,
           C      staff conduct assessments of operating experience at facilities, and


     B. IMPROVE GUIDANCE FOR INSPECTION FOLLOW-UP ITEMS

           NRC guidance documents are an important management control and, therefore,
           should provide clear direction for conducting agency activities. However, there is
           no guidance describing for licensees what an inspection follow-up item means in
           regulatory terms. As a result, licensees may fail to act according to NRC’s

                                             4
                                                        NRC’s Oversight of Research and Test Reactors

    expectations. NRC can further enhance licensee and public understanding of the
    inspection process by providing guidance for inspection follow-up items.
    Provide Guidance for Inspection Follow-up Items

             The Need for Inspection Follow-up Item Guidance

    Clear guidance helps to ensure effective and efficient use of valuable agency
    resources and consistent regulation of NRC licensees. NRC’s Inspection Manual
    provides guidance for its inspectors on inspection report content. The manual
    describes an inspection follow-up item as a matter that requires further inspection
    effort because of a potential problem, because specific licensee or NRC action is
    pending, or because additional information is needed that was not available at the
    time of the inspection. When questions exist about the adequacy of a licensee's
    completed or planned corrective actions for such items, the inspector may choose
    to create an inspection follow-up item to ensure that the licensee's later actions are
    evaluated.6 A specific inspection procedure describes NRC’s process to further
    review and evaluate inspection follow-up items with respect to status of completion,
    expediency of completing the open item, and effectiveness of completion.

             Inspection Follow-up Item Guidance Should be Clarified

    No guidance exists for licensees describing what an inspection follow-up item
    means in regulatory terms. The inspection manual does provide guidance to NRC
    inspectors for identifying and documenting inspection follow-up items. However,
    nothing describes the responsibilities of the licensee when an inspector places an
    inspection follow-up item in an inspection report and what will happen if a licensee
    does not take corrective action. Licensees confirmed that requirements for
    inspection follow-up items are not clear.

    Without a clear understanding of inspection follow-up items, their possible
    significance, and what is expected to address those items, licensees may fail to act
    according to NRC’s expectations. In addition, the public cannot be assured that
    licensees will consistently and adequately take corrective action on inspection
    follow-up items.

    RECOMMENDATION

    OIG recommends that the Executive Director for Operations:

    1.       Provide guidance for licensees describing the regulatory implications of,
             and licensee requirements for, inspection follow-up items.


6
    For example, in one inspection report an inspector opened an inspection follow-up item to track a
    licensee’s efforts to implement an effective audit program for operations. The inspector had reviewed
    that area and found that no formal audit program had been developed by the licensee.

                                            5
                                                        NRC’s Oversight of Research and Test Reactors

C. IMPROVE THE OPERATING PLAN

     NRC offices prepare operating plans to show planned accomplishments (activities)
     and performance measures and targets. However, one of the two research and
     test reactor planned accomplishments7 does not represent a discrete level of
     activity and current performance measures, as a whole, do not comply with
     guidance. As a result, it is difficult for management to make improvements in
     resource usage for three distinct, important activities. Additionally, management
     does not have sufficient information to gauge whether performance in these
     activities is adequate and to ensure optimal performance. NRC can increase
     management’s ability to monitor and improve performance by (1) revising planned
     accomplishments, and (2) improving performance measures for planned
     accomplishments.

     Revise Planned Accomplishments

             The Need for Research and Test Reactor Planned Accomplishments

     A planned accomplishment (activity) should represent a level of discrete activity
     where staffing and budgetary resources can be identified.8 For example, a planned
     accomplishment might consist of research and test reactor inspection activity.
     NRC’s planning, budgeting, and performance management process works to
     achieve organizational effectiveness by identifying planned accomplishments and
     the resources necessary to achieve desired outcomes for each activity. Offices
     prepare operating plans which show planned accomplishments and include
     performance measures and resource information. The operating plan performance
     information defines and measures success for each planned accomplishment.

     Two planned accomplishments represent the critical activities in the research and
     test reactor area. Although staff charge time to other planned accomplishments,
     only these two have associated performance measures in the operating plan.
     Each planned accomplishment is used in NRC’s time and labor system for
     recording hours worked by employees in each area. The two activities are:

     C       Project Management, Licensing, Operator Licensing
     C       Inspections




7
     These two planned accomplishments are in the Office of Nuclear Reactor Regulation operating plan.

8
     Memorandum from the Chief Financial Officer and the Executive Director for Operations to the
     Chairman and Commissioners: Update to the Planning, Budgeting, and Performance Management
     Process; July 19, 2002.

                                            6
                                                        NRC’s Oversight of Research and Test Reactors

             Planned Accomplishments Should be Revised

    The project management, licensing, and operator licensing planned
    accomplishment does not represent a discrete level of activity where budgetary
    and staffing resources can be identified. In fact, in fiscal year 2002, almost forty
    percent of all time worked by research and test reactor staff was charged to this
    one planned accomplishment.9 Managers cannot effectively determine the amount
    of time staff spend performing those three distinct activities. As a result, it is
    difficult to make improvements to performance and in resource use for the three
    important, discrete activities within this planned accomplishment. To make
    improvements in the use of staff time, this type of information should be readily
    available to managers. A senior manager agreed this planned accomplishment
    should be split.

    RECOMMENDATION

    OIG recommends that the Executive Director for Operations:

    2.       Revise research and test reactor planned accomplishments to reflect
             discrete activity levels.

    Improve Performance Measures for Planned Accomplishments

             The Need for Research and Test Reactor Performance Measures

    Managers use performance measures to analyze performance and to report on the
    results of activities. Performance measures should align with the agency’s
    mission, identify outputs, identify the aspect of performance to measure, and
    establish performance goals or targets. Outputs include measurable
    characteristics of a program’s planned accomplishments such as quality,
    effectiveness, and efficiency.

    NRC has established guidelines for output measures for planned
    accomplishments. A model was provided for output measures, which included
    metrics, as appropriate, for effectiveness, efficiency, quality, quantity, and
    timeliness. Offices were generally required to establish, at a minimum, an
    effectiveness metric at the planned accomplishment level.




9
    For comparison, about seven percent of staff time was charged to the inspections planned
    accomplishment - a discrete activity. The balance of staff time was charged to planned
    accomplishments that do not have performance measures or represent work done for infrequent
    activities or for other offices. For example, about 17 percent of time was charged to absence and a
    total of about 17 percent was charged to the clerical support, supervision, and staff development
    activities. Overall, staff charged time to 33 different planned accomplishments.

                                            7
                                                NRC’s Oversight of Research and Test Reactors

     The performance measures in the operating plan for the two research and test
     reactor planned accomplishments (described in the previous section of this report)
     include, for example:

     C      counts of licensing actions completed - a quantity measure,
     C      counts of operator licensing examinations completed - a quantity measure,
     C      hours used per licensing action - an efficiency measure,
     C      licensing actions completed within one year - a timeliness measure, and
     C      resources used for inspection activity within ± 15 percent of budget - no
            category.

            Performance Measures Should be Improved

     As a whole, the performance measures in the operating plan do not meet the intent
     of the guidance. Specifically,

     9      The measures for each planned accomplishment do not include some of
            the appropriate performance categories. Most importantly, there are no
            effectiveness or quality measures.

     9      Under each planned accomplishment, there are measures of whether the
            budget was met within, for example, ± 15 percent. These metrics measure
            management’s ability to develop accurate budgets, an administrative
            activity, not a planned accomplishment activity.

     As a result, management cannot use the existing performance information to most
     effectively manage resources and ensure optimal performance.

     RECOMMENDATION

     OIG recommends that the Executive Director for Operations:

     3.     Develop performance measures for research and test reactor activities in
            accordance with guidance.


D. INCREASE THE INFORMATION AVAILABLE TO THE PUBLIC

     NRC’s web site provides the public with access, as appropriate, to NRC’s
     Inspection Manual, inspection procedures, and inspection reports. However, the
     web site version of the Inspection Manual does not provide a list of the specific
     inspection procedures that inspectors perform at each research and test reactor
     and inspection reports do not always show all of the inspection procedures
     performed by inspectors. As a result, the public is not adequately informed of



                                      8
                                             NRC’s Oversight of Research and Test Reactors

NRC’s inspection activities and cannot effectively participate in or make
reasonable judgments about the adequacy of NRC’s inspection program. NRC
can increase public confidence in its oversight of research and test reactors by (1)
more fully informing the public of the inspection program, and (2) improving
documentation of inspection work performed.

More Fully Inform the Public of NRC’s Inspection Program

        The Need to Provide Inspection Program Information to the Public

NRC’s web site provides the public with access, as appropriate, to NRC’s
Inspection Manual and inspection procedures for all licensees. NRC’s strategic
plan emphasizes that NRC builds and maintains public trust and confidence by
providing stakeholders with clear and accurate information about NRC’s regulatory
programs. The inspection manual establishes the uniform inspection methodology
for research and test reactors. Specific inspection procedures provide guidance
for performing inspections of various licensee activities. For example, procedures
exist for inspecting the adequacy of licensees’ operational activities, radiation and
environmental protection, maintenance and surveillance activities, fuel handling,
experiments, emergency preparedness, material control and accounting, and
safeguards and security.

        More Information Should be Provided to the Public

The inspection manual on the web site references tables that list the specific
inspection procedures to be performed at each research and test reactor facility.
However, the manual does not contain the tables. The web site lists hundreds of
inspection procedures, but only about 20 are used at research and test reactors.
The remaining inspection procedures are used, for example, at commercial power
reactors, fuel cycle facilities, and materials licensees. Without the tables, it is not
feasible for the public to determine which procedures NRC has committed to
perform at each research and test reactor. As a result, the public may not be
adequately informed of NRC’s inspection activities and this may affect the public’s
ability to effectively participate in or make reasonable judgments about the
adequacy of NRC’s research and test reactor inspection program.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

4.      Post, on the public web site, the tables listing the specific inspection
        procedures being performed at research and test reactors.




                                   9
                                                   NRC’s Oversight of Research and Test Reactors

     Improve Documentation of Inspection Work

             The Need for Guidance for Documenting Inspection Results

     NRC inspection reports communicate significant inspection results to licensees,
     NRC staff, and the public. The reports also provide conclusions about the
     effectiveness of the programs or activities inspected. NRC’s Inspection Manual
     provides that inspection reports should contain sufficient detail to understand the
     findings and include details such as inspection procedures used, the exact
     component inspected, and other similar details. As official agency records, the
     level of detail used in inspection reports is important as a tool for research and for
     obtaining historical perspective of licensees’ performance.

             Documentation Should be Improved

     Inspection procedures that are being performed are not referenced in inspection
     reports. Review of inspection reports over a recent three year period indicated that
     some inspection procedures performed were not referenced in the inspection
     report. Inspectors confirmed that they do not necessarily reference all inspection
     procedures used in the associated inspection report.

     As a result, the public may not be adequately informed of NRC’s inspection
     activities and this may affect the public’s ability to effectively participate in or make
     reasonable judgments about the adequacy of NRC’s research and test reactor
     inspection program. As official agency records, inspection reports with incomplete
     documentation will not be effective as a tool for research and historical
     perspective, or for future planning.

     RECOMMENDATION

     OIG recommends that the Executive Director for Operations:

     5.      Revise management controls to ensure all inspection procedures
             performed are documented in inspection reports.


E. DOCUMENT REFRESHER AND CONTINUING INSPECTOR TRAINING

     NRC requires certain training to ensure an overall level of inspector performance
     and to keep up-to-date with changes to the inspection program. While forums exist
     to provide this training, management does not document the results.
     Consequently, employee training records do not reflect compliance with training
     requirements.




                                        10
                                                    NRC’s Oversight of Research and Test Reactors

               The Need for Refresher and Continuing Training Requirements

        NRC’s Inspection Manual defines the core training requirements for research and
        test reactor inspectors. As opposed to other, similar inspectors, the manual states
        that there is no specific, routine refresher training for research and test reactor
        inspectors. However, the manual provides that inspector training does not end
        when an inspector is fully certified and requires:

        (1) refresher training to ensure inspectors maintain an overall level of performance,
        and

        (2) continuing training with the expectation that staff build on what was learned in
        initial training as well as to keep up to date with changes to the inspection program.

               Refresher and Continuing Training Should be Documented

        Management stated they provide quarterly all-hands meetings and other forums
        where current information is exchanged to ensure that staff, including inspectors,
        remain current with training and knowledge. These activities provide inspectors
        with refresher and continuing training. However, because this training is not
        documented, employee training records do not reflect compliance with
        requirements.

        RECOMMENDATION

        OIG recommends that the Executive Director for Operations:

        6.     Formally document and track refresher and continuing training provided for
               research and test reactor inspectors.

IV. MANAGEMENT ACTIONS

        OIG held meetings during the audit with NRC staff to discuss audit results. Based
        on these meetings, Research and Test Reactor Section officials have initiated
        discussion and staff assignments to resolve each of the findings and
        recommendations in this report.




                                         11
                                                    NRC’s Oversight of Research and Test Reactors


V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Provide guidance for licensees describing the regulatory implications of,
               and licensee requirements for, inspection follow-up items.

        2.     Revise research and test reactor planned accomplishments to reflect
               discrete activity levels.

        3.     Develop performance measures for research and test reactor activities in
               accordance with guidance.

        4.     Post, on the public web site, the tables listing the specific inspection
               procedures being performed at research and test reactors.

        5.     Revise management controls to ensure all inspection procedures
               performed are documented in inspection reports.

        6.     Formally document and track refresher and continuing training provided for
               research and test reactor inspectors.




                                         12
                                                  NRC’s Oversight of Research and Test Reactors


VI. AGENCY COMMENTS

        At an exit conference held on May 21, 2003, NRC officials generally agreed with
        the report’s findings and recommendations. While agency officials chose not to
        provide a formal, written response for inclusion in the report, they did provide
        editorial suggestions which have been incorporated where appropriate.




                                        13
                         NRC’s Oversight of Research and Test Reactors




[Page intentionally left blank.]




              14
                                                             NRC’s Oversight of Research and Test Reactors
                                                                                               Appendix A


SCOPE AND METHODOLOGY

         To address the objective of this audit, we discussed research and test reactor
         oversight with:

         C        NRC headquarter’s staff,
         C        licensee officials,
         C        a public interest group, and
         C        an NRC Agreement State representative.

         We conducted site visits to a sample of operating and decommissioning research
         and test reactors. We also reviewed related inspection reports, licensing
         documents, other work products, guidance documents, and the current operating
         plan.

         OIG recently reported on NRC’s oversight of special nuclear material which
         included such material at research and test reactors.10 Therefore, that area is not
         covered in this report.

         NRC continues its efforts to ensure that the necessary post-9/11 security
         compensatory measures are implemented at research and test reactors.
         Licensees’ site-specific plans to implement compensatory measures, once
         approved by NRC staff and implemented by the licensee, will be verified by NRC
         inspection. We gathered information about security and safeguards and shared
         our observations with agency managers. However, because of its sensitivity and
         the status of the new requirements, this report does not comment in that area.

         Our work was conducted in accordance with generally accepted Government
         auditing standards and included a review of management controls related to the
         objective of this audit. This audit was conducted from September 2002 to
         April 2003. The major contributors to this report were Robert Moody, Audit
         Manager, and Yvette Russell, Senior Auditor.




    10
         OIG-03-A-15, titled, Audit of NRC’s Regulatory Oversight of Special Nuclear Materials, May 23, 2003.

                                                15
